                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




       A competing contractor alleged that       .
                                                     -

       University felt that all of the bids for the subcontract were too high, so the University splitthe
       contract and awarded pieces of the contract to two other companies without readvertiiing the.
       contract. Review of the program jacket showed that             University provided the facts of the
                                                                     ,-




       procurement process and outcome to NSF and the program officer approved the subcontra'cts.


        Grantees such as  .'   . -.

        Competition; reads, in part, "Any and all bids or offers may be rejected when it is in the recipient's
        interest to do so."

        There is no evidence that     .   .




        Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
